                                                                   Issue Date
                                                                          December 18, 2007

                                                                   Audit Report Number
                                                                           2008-FW-1004




TO:        John T. Maldonado
           Director, Community Planning and Development, 6JD


FROM:      Gerald R. Kirkland
           Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: Community Development Corporation of Brownsville, Brownsville, Texas, Did
         Not Use Its Housing Counseling Grants for the Intended Purpose


                                     HIGHLIGHTS

 What We Audited and Why

             We audited the Community Development Corporation of Brownsville, Inc.
             (Corporation), at the request of the U. S. Department of Housing and Urban
             Development’s (HUD) San Antonio Director of Community Planning and
             Development.

             Our objective was to determine whether the Corporation correctly charged
             administrative costs to its various federal funding sources. We expanded our
             objective to also determine whether the Corporation used housing counseling grant
             funds to qualify mortgage applicants instead of counseling potential homebuyers.


 What We Found


             The Corporation used part of its housing counseling grant funds for qualifying
             mortgage applicants. This condition occurred because the Corporation has a
             prohibited conflict of interest as it provided housing counseling, mortgage
             qualifying, and underwriting services. As a result, it charged $177,139 in ineligible
             salaries and $80,647 in unsupported fringe benefits to its grants.
           In addition, the Corporation did not allocate general administrative costs in
           proportion to the relative benefits received by the various funding sources or
           awards, which resulted in unsupported costs of $391,313. Further, it could not
           support a $472,069 increase in its building acquisition cost or the $66,000 value
           assigned to the land because it did not follow federal requirements and generally
           accepted accounting principles (GAAP). As a result, it may have overcharged its
           federal funding sources or awards by as much as $67,210 for depreciation. The
           improper allocation of costs and overcharging occurred because the Corporation did
           not fully understand or follow federal requirements and GAAP.

What We Recommend


           We recommend that the Director of Community Planning and Development require
           the Corporation to resolve its conflict of interest between counseling potential
           homebuyers and selling them and/or financing their home and repay to HUD
           $177,139 in ineligible salaries and support or repay $80,647 in fringe benefits
           charged to the housing counseling grant funds. In addition, the Director should
           require the Corporation to develop a cost allocation plan that allocates general
           administrative expenses relative to the benefits received by its funding sources or
           awards. The Corporation should submit the plan to HUD for approval and then
           reallocate the $391,313 in general administrative expenses. The Corporation should
           obtain an appraisal as of the date it purchased the building, have the appraiser value
           the building and land separately, adjust the values of the building and land,
           recalculate the depreciation, and reallocate the correct depreciation.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3. Please
           furnish us copies of any correspondence or directives issued because of the audit.

Auditee’s Response


           We provided our discussion draft report to the Corporation on November 5, 2007,
           and held the exit conference on November 13, 2007. We requested a written
           response by November 26, 2007, but granted the Corporation’s request for
           additional time to respond. The Corporation provided a 22-page written response
           along with attachments on November 27, 2007. We did not include the entire
           response in the report because it was too voluminous, but it is available for review
           upon request. We summarized the response and provided our evaluation in
           Appendix B.

           The Corporation disagreed with all three findings in the report, but did not provide
           any information that could refute the findings. Our conclusions remain unchanged;
           however, we reclassified some expenses in finding 1 from ineligible to unsupported
           based on the auditee’s comments.



                                             2
                            TABLE OF CONTENTS

Background and Objectives                                                          4

Results of Audit
      Finding 1: Housing Counseling Grants Were Inappropriately Used to Qualify    5
                 Applicants
      Finding 2: The Corporation Did Not Equitably Allocate Administrative Costs   7
      Finding 3: The Corporation May Have Overcharged Its Funding Sources for      9
                 Building Depreciation

Scope and Methodology                                                              11

Internal Controls                                                                  12

Appendixes
   A. Schedule of Questioned Costs                                                 14
   B. Auditee Comments and OIG’s Evaluation                                        15
   C. The Corporation’s Funding Sources for Fiscal Year 2006                       18




                                             3
                      BACKGROUND AND OBJECTIVES

The Community Development Corporation of Brownsville, Inc. (Corporation) was organized in
1974 to provide affordable housing to the Brownsville area. The Corporation is located at 901
East Levee Street, Brownsville, Texas. It built and/or financed 556 affordable homes and provided
downpayment assistance to 372 families during the audit period. It was approved as a Federal
Housing Administration direct endorsement lender on November 20, 1995.

The Corporation generates revenue by selling houses; earning lending and servicing fees; selling
individual building sites that were either purchased in bulk or developed; providing housing
education to low- and moderate-income persons; and obtaining funding from federal, state, local,
and private sources. It had gross revenues of $6.6 million in 2006, of which more than $1.8
million was from federal sources (see appendix C). It had gross revenues of $6.9 million and
$11.3 million in 2005 and 2004, respectively.

The U. S. Department of Housing and Urban Development (HUD) Office of Community Planning
and Development, San Antonio, Texas, office, and the City of Brownsville have had concerns
regarding the Corporation for many years. Due to the ongoing problems, HUD’s San Antonio
Director of Community Planning and Development requested that we audit the Corporation’s
method of allocating costs.

Our objective was to determine whether the Corporation correctly charged administrative costs to
its various funding sources between October 1, 2003, and September 30, 2006. We expanded our
objective to also determine whether the Corporation used housing counseling grant funds to
qualify mortgage applicants instead of counseling potential homebuyers.




                                                4
                                   RESULTS OF AUDIT

Finding 1: Housing Counseling Grants Were Inappropriately Used to
           Qualify Applicants
The Corporation used housing counseling grant funds to qualify mortgage applicants instead of
offering advice to potential homebuyers and renters as required by HUD. This condition occurred
because of a conflict of interest and resulted in $177,139 in ineligible salaries and $80,647 in
unsupported fringe benefits.



    The Corporation Had a Conflict
    of Interest


                The Corporation had a conflict of interest. It offered its clients counseling services;
                sold them homes, which it developed and built; and provided financing. HUD’s
                Housing Counseling Handbook states that HUD considers a conflict to exist when
                the counseling agency has any interest in the matter relating to the client or an
                interest that might compromise the agency’s ability to represent fully the best
                interests of the client. It further states that a conflict of interest exists whenever the
                agency owns or purchases a property that the client seeks to rent or chooses to rent
                or owns or purchases the property that the client seeks to purchase or chooses to
                purchase.
    Counseling Funds Were Used to
    Find and Qualify Loan
    Applicants

                The Corporation improperly charged its housing counseling grants $177,139 in
                salaries for employees, other than housing counselors, whose purpose was to
                qualify mortgage loan applicants. The purpose of HUD’s Housing Counseling
                Assistance Program is to offer advice to potential homebuyers and renters, not to
                find and qualify mortgage loan applicants or sell houses. In addition, the
                Corporation could not support $80,647 in fringe benefits paid for employees. The
                objective of the counseling program is to increase participation of first-time
                homebuyers and reduce mortgage defaults and foreclosures. To reach these
                program objectives, counseling agencies perform outreach, education, and
                followup. 1

                The Corporation did not fully understand or follow HUD’s Housing Counseling
                Assistance Program requirements. Its executive director explained that only one
                out of ten families that the Corporation served qualified for a mortgage loan. The

1
     HUD Handbook 7610.1, REV-4, CHG-2, Housing Counseling Program Handbook.
                                                    5
          Corporation used the housing counseling grant to pay the costs associated with
          families that did not qualify. The executive director stated that the Corporation
          operated the same as other housing counseling agencies. However, we contacted
          three housing counseling agencies in the region, which stated that they did not sell
          to or finance homes for their clients.

          We attributed the improper use of housing counseling funds for mortgage loan
          processing to a conflict of interest. The Corporation used the funds to qualify
          mortgage applicants instead of offering advice to potential homebuyers and renters.

Recommendations



          We recommend that the Director of Community Planning and Development require
          the Corporation to

          1A. Resolve the conflict of interest before it spends any more housing counseling
              grant funds.

          1B. Repay $177,139 to HUD from nonfederal funds for ineligible salaries.

          1C. Provide support for $80,647 paid for fringe benefits or repay to HUD from
              nonfederal funds any unsupported costs.




                                            6
Finding 2: The Corporation Did Not Equitably Allocate Administrative
           Costs
The Corporation did not allocate $391,313 in general administrative costs in proportion to the
relative benefits received by the various funding sources or awards. The improper allocation of
costs occurred because the Corporation did not fully understand or follow federal requirements.




    Methods of Allocating Costs to
    Federal Grants

                  According to federal requirements, 2 there are two types of cost, direct and indirect.
                  Direct costs can be identified specifically with an award. Indirect costs are incurred
                  for common or joint costs and cannot be readily identified with just one award.
                  Indirect costs are classified as either “facilities” or “administration.” Nonprofits
                  can allocate indirect costs using several different methods including simplified,
                  multiple base, direct, and negotiated rate. Nonprofits must prorate indirect costs
                  using a base which accurately measures the benefits provided to each funding
                  source or award. The base must be established in accordance with reasonable
                  criteria and be supported by current data.

    The Corporation’s Allocation
    Method

                  The Corporation submitted several cost allocation plans to HUD, but none of the
                  plans were approved. It treated all costs as direct costs, except for some facilities
                  and administration costs. It used building square footage as the base to allocate
                  facilities and administrative costs. It used two methods to assign square footage.
                  First, it identified the square footage related to specific funding sources or awards, a
                  method that met federal requirements. Second, it assigned the common and
                  administrative area costs equally to the funding sources, irrespective of the benefits
                  provided to each funding source, a method that did not meet federal requirements.
                  As a result, the Corporation may have overcharged the various funding sources a
                  total of $391,313. We were unable to determine the amount charged to the housing
                  counseling grant. However, the space used for the program was minimal when
                  compared to that used for other programs.

                  The Corporation’s current cost allocation plan does not properly allocate some
                  general administrative expenses relative to the benefits received by its funding
                  sources. The improper allocation of costs occurred because the Corporation did not
                  fully understand or follow federal requirements.


2
      Office of Management and Budget Circular A-122, Cost Principles for Non-Profit Organizations.
                                                         7
Recommendations



          We recommend that the Director of Community Planning and Development require
          the Corporation to

          2A. Develop a cost allocation plan that allocates general administrative expenses
              relative to the benefits received by its funding sources and submit the plan to
              HUD for review and approval.

          2B. Reallocate the $391,313 in general administrative expenses in accordance with
              the approved plan and submit the reallocation results to HUD for review and
              approval.

          2C. Refund any overcharges to the appropriate federal agency or grant.




                                             8
    Finding 3: The Corporation May Have Overcharged Its Funding Sources
               for Building Depreciation
The Corporation may have overcharged depreciation expense and could not support its building
acquisition cost because it did not follow federal requirements and generally accepted accounting
principles (GAAP) in accounting for the building purchase. As a result, the Corporation may have
overcharged $67,210 in depreciation expense and could not support an increase of $472,069 in the
building acquisition cost or the $66,000 value assigned to the land.



    The Corporation Purchased
    and Then Valued the Building


                 The Corporation purchased its main office building in September 2000 for
                 $175,000. In 2002, it had the building appraised for $660,000. The appraiser did
                 not separate the land and building values. At that time, the Corporation increased
                 the recorded value of the building by $472,069 and allocated $66,000 to the land. It
                 stated that the increase in value was due to the seller of the property claiming a
                 charitable contribution for the difference between the original sales price and the
                 appraised value.

                 The Corporation was required to follow Office of Management and Budget Circular
                 A-122, which requires costs to be determined in accordance with GAAP. When an
                 asset is aquired, GAAP requires that its value be recorded at cost. GAAP also
                 requires that charitable contributions received be recognized as revenues or gains in
                 the period received and as assets, decreases of liabilities, or expenses, depending on
                 the form of the benefits received. Contributions received shall be measured at their
                 fair values. 3

                 The Corporation indicated that a charitable contribution was part of the original sale
                 transaction. However, the charitable contribution was not properly recorded as the
                 Corporation did not understand federal requirements. If a charitable contribution
                 occurred on the date of the sale, the Corporation should have obtained an appraisal
                 when it purchased the building and recorded it appropriately. Further, the appraiser
                 should have placed a separate value on the land and building. However, the facts
                 surrounding the sale, the charitable contribution, and the Corporation’s increase in
                 the value appear questionable. For example, the charitable contribution letter from
                 the seller was undated, but it contained 2002 appraisal information. The
                 Corporation began depreciating the increased value of the property in 2003, but the
                 sale was recorded in 2000. We question the additional depreciation charges of
                 $67,210.


3
     Statement of Financial Accounting Standards No. 116, Accounting for Contributions Received and Contributions
     Made.
                                                        9
          The Corporation purchased its office building in 2000 for $175,000 and obtained an
          appraisal in 2002 showing the building valued at $660,000. The Corporation then
          claimed that, at the initial purchase, the seller intended to make a contribution to the
          Corporation for the difference between the original sales price and the appraised
          value. This does not comply with GAAP.

Recommendations



          We recommend that the Director of the Office of Community Planning and
          Development require the Corporation to

          3A.     Provide evidence to HUD that a charitable contribution occurred on the date
                  of the building purchase.

          3B.     If HUD agrees that a charitable contribution occurred on the date of
                  purchase, obtain an appraisal that separately values the building and land, as
                  of the date of purchase, and make adjustments to depreciation, if necessary,
                  based on the appraisal.

          3C.     If HUD determines that a charitable contribution did not occur on the date of
                  purchase, depreciate the building based on its cost. Depending on the
                  method of depreciation HUD allows, the unsupported depreciation expense
                  could be as much as $67,210.




                                             10
                         SCOPE AND METHODOLOGY

We audited the Corporation, located at 901 East Levee Street, Brownsville, Texas. Our audit
covered the period from October 1, 2003, to September 30, 2006. We conducted the audit from
February 20 to June 7, 2007.

To accomplish our audit objective, we

   •   Planned the survey and audit.

   •   Interviewed the chairman of the Rio Grande Valley MultiBank, three other regional
       housing counselors, a local builder, HUD and Corporation staff, and a former Corporation
       employee.

   •   Reviewed Office of Management and Budget Circular A-122, Cost Principles for
       Non-Profit Organizations; Statement of Financial Accounting Standards No. 116,
       Accounting for Contributions Received and Contributions Made; applicable housing
       counseling grants; and HUD Handbook 7610.1, REV-4, CHG-2, Housing Counseling
       Program Handbook.

   •   Reviewed HUD and Corporation correspondence, the Corporation’s audited financial
       statements, HUD monitoring reports, and an agreed-upon procedures report from the
       Corporation’s auditors.

   •   Reviewed the September 3 and 10, 2006, payroll records for two employees to gain an
       understanding of the system.

   •   Reviewed a sample of 20 of 1,064 housing counseling files randomly selected by EZ-Quant
       to gain an understanding of the system.

   •   Reviewed the Corporation’s direct cost allocation plan and documents and transactions
       pertaining to the Corporation’s building purchase.

   •   Performed other tests as necessary to accomplish our objectives.

   We did not conduct an in-depth review of the reliability of the Corporation’s computer-
   processed data because we only used the data for background purposes. We performed our
   audit in accordance with generally accepted government auditing standards.




                                               11
                               INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its mission,
goals, and objectives. Internal controls include the processes and procedures for planning,
organizing, directing, and controlling program operations. They include the systems for
measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •   Cash receipts,
              •   Purchasing,
              •   Accounts payable,
              •   Cash disbursements,
              •   Payroll,
              •   Property and equipment,
              •   Systematic organization,
              •   Written procedures, and
              •   Direct cost allocation plan.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

              •       Housing counseling grants were used to qualify borrowers due to a conflict
                      of interest (see finding 1).
              •       The Corporation did not equitably allocate administrative costs (see finding
                      2).

                                                 12
•   The Corporation could not support an increase in its building acquisition
    cost or the value assigned to the building’s land (see finding 3).




                              13
                                    APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS



              Recommendation         Ineligible 1/      Unsupported 2/
                  number
                     1B                    $177,139
                     1C                                         $ 80,647
                     2C                                          391,313
                     3A                     _______               67,210

                    Totals                 $ 177,139           $ 539,170




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or
     activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.




                                             14
Appendix B

       AUDITEE COMMENTS AND OIG’S EVALUATION




                        15
            We did not include the remaining 21 pages of the auditee’s comments or the
            attachments because they were voluminous. They are available for review upon
            request. Following is a summary of the comments and OIG’s evaluation of the
            comments.

Comment 1   The Corporation believed that it did not have a conflict of interest because HUD
            had reviewed its Housing Counseling program every two years since 1991 and had
            unconditionally approved it. The Corporation pointed out that HUD used a
            monitoring form that contained specific questions concerning conflict of interest,
            and that no conflict of interest was noted. In addition, the Corporation claimed that
            it had no conflict of interest because it was not a seller of homes, a builder of homes
            except for self-help program homes, and did not sell homes it developed and built to
            clients that it counseled.

            OIG Evaluation: The Corporation had a conflict of interest. Its audited financial
            statements list “Home and Lots Sales” as the Corporation’s primary source of
            revenue. In addition, HUD did not conclude that the Corporation was free of a
            conflict of interest. HUD’s monitoring report did not include whether a conflict of
            interest existed, only that the Corporation used lending staff for part-time
            counseling on specific days. HUD considers a conflict to exist when the counseling
            agency has any interest in the matter relating to the client, and interest that might
            compromise the agency’s ability to represent fully the best interests of the client.
            HUD provides specific circumstances in which a conflict exists, including selling a
            client a home and holding or servicing the mortgage on the client’s property, both
            of which the Corporation does.

Comment 2   The Corporation disagreed with the ineligible costs totaling $257,787 because the
            figure included eligible costs. It argued that OIG included $9,684 in fringe benefits
            associated with allowable employee salaries, $60,965 in allowable administrative
            salaries and benefits, and $24,186 in unreimbursed funds.

            OIG Evaluation: We reclassified the questioned costs to $177,139 of ineligible
            salaries and unsupported fringe benefits of $80,647. We also added a
            recommendation for the Corporation to provide support for $80,647 paid for fringe
            benefits or repay to HUD from nonfederal funds any unsupported costs. We
            recognize that the Corporation may not have been fully reimbursed and the Field
            Office may take this into account.

Comment 3   The Corporation disagreed with the unsupported costs totaling $391,313 because it
            was the sum of all expenses, including direct, administrative, Youthbuild, amounts
            paid from the Corporation’s unrestricted funds and common area expenses.

            OIG Evaluation: We based the unsupported costs on information supplied by the
            Corporation. The Corporation’s expenses allocated by square footage included
            telephone, postage meter rental, software upgrades, maintenance agreements,
            security, copier lease, internet, office and cleaning supplies, and utilities. We did
            not include all direct expenses (i.e. postage, consulting, accounting, legal, audit and
            insurance).
                                              16
Comment 4   The Corporation disagreed with our conclusion that it could not support an increase
            in a building acquisition cost and a land valuation. It claimed that it had complied
            with HUD requirements and GAAP concerning the appreciation of the building. It
            disagreed that it might have overcharged depreciation expense by $67,210 because
            its auditors had confirmed the depreciation and building value.

            OIG Evaluation: The Corporation did not comply with HUD requirements or
            GAAP. The Corporation did not value the building at the time of acquisition, but
            waited until two years after the purchase. The appraisal district’s value did not
            support the value in the Corporation’s accounting records. The Corporation
            claimed $67,210 in depreciation expense based on the unsupported value of the
            building.




                                             17
Appendix C

     The Corporation’s Funding Sources for Fiscal Year 2006




                               18
